                                                                                            1
                                                                                            'I

                                    NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                                                                            I!   Page 1 of 2


                                       ARLINGTON, VIRGINIA 22230




         OFFICE OF
    INSPECTOR GENERAL




    MEMORANDUM
              .   .

    Date: January 26,1999
                                                                                       '1
    To:
                                                                                   1




                        e
           -                                  ant Inspector General for Investigations
                                                                                   'I

    From: p       e     c   i   a    l Agen                                        !I
                                                                                   I



    RE:    Closeout                                                                i
                                                                                   I



    Background                                                                 i   )




    Investigation
                                                                              I[
    The investigation                      ad encountered difficulties in synthesizing
    adequate quantities of the                   essential for its work. A i a result, the
,   compound had not been forwarded to its subcontractor, o          r e v a l F o n . ART had
    requested a no cost extension to its Phase I grant and received an extension through
    February 28,1998.                                                        I1

    a        d further difficulties in
     another no cost extension.
     requested that m e t u r n unexpended funds
     received $49,998 of the projected $74,998 from NSF and
     unexpended funds in an amount of $36,481 on July 30,
     report on September 2 1,1998.
     the award on September 25, 1998 due to
     t     a     t      e     d in the Phase 1
                                                                         /I
                                            Closeout                              age 2 of 2
                                                                         ll
Conclusions

There is no evidence of criminal misconduct on the part of-)tified               the NSF
program
.   -    manager of its difficulties in accomplishing its researc objectiyes and returned
the unused *ortion of its award when requested by the NSF             rnadager. Based on
these findings this case is closed.
